              Audit Report



The Social Security Administration’s
 Plan to Reduce Improper Payments
  Under Executive Order 13520, as
       Reported in April 2014




      A-15-14-14127 | September 2014
MEMORANDUM


Date:      September 29, 2014                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Plan to Reduce Improper Payments Under Executive
           Order 13520, as Reported in April 2014 (A-15-14-14127)

           The attached final report presents the results of our audit. Our objectives were to review the
           Social Security Administration Accountable Official’s Annual Report to the Office of the
           Inspector General, as required by Executive Order 13520, Reducing Improper Payments, and
           determine whether the (1) figures presented were accurate and (2) Agency complied with all
           requirements of the Executive Order.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Plan to Reduce Improper
Payments Under Executive Order 13520, as Reported in
April 2014
A-15-14-14127
September 2014                                                            Office of Audit Report Summary

Objectives                                 Our Findings

To review the Social Security              During our review, we noted the Agency generally presented all
Administration Accountable Official’s      information required for Executive Order 13520 in its Annual
Annual Report to the Office of the         Report, except for the corrective actions for the Supplemental
Inspector General, as required by          Security Income (SSI) program and explanations for Old-Age,
Executive Order 13520, Reducing            Survivors and Disability Insurance and SSI programs’ performance
Improper Payments, and determine           in meeting its reduction targets. We also noted four immaterial
whether the (1) figures presented were     instances of figures that were inaccurate based on the supporting
accurate and (2) Agency complied with      documentation.
all requirements of the Executive
Order.                                     The Agency has reported the same corrective actions for the SSI
                                           program in the past four reporting cycles and has not reported any
Background                                 new initiatives that prevent and identify improper payments.
                                           Additionally, the Agency has no full implementation date
On November 20, 2009, the President        established for its Access to Financial Institutions program. We
signed Executive Order 13520 to            reported these same observations in prior evaluations and made
reduce improper payments by                recommendations to address our findings. Although we did not
intensifying efforts to eliminate          repeat our recommendations in this report, we encourage the
payment error, waste, fraud, and abuse     Agency to continue pursuing corrective actions.
in major Government-administered
programs, while continuing to ensure
that Federal programs serve and
provide access to their intended
beneficiaries. The Executive Order
provides, in part, that when the
Government makes payments to
individuals and businesses, such as
program beneficiaries, grantees, or
contractors, or on behalf of program
beneficiaries, it must make every effort
to confirm that the right recipient is
receiving the right payment.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
     Improper Payments ....................................................................................................................2
Results of Review ............................................................................................................................2
     Requirements of Executive Order ..............................................................................................2
           Methodology for Identifying and Measuring Improper Payments ......................................2
           Plan for Meeting the Reduction Targets for Improper Payments ........................................3
           Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access .........................6
           Quarterly High-Dollar Report to the OIG and Council of Inspectors General on Integrity
           and Efficiency ......................................................................................................................7
           Website Submission .............................................................................................................7
           Risk and Oversight Assessed by the OIG ............................................................................8
     Accuracy of Reported Information ............................................................................................8
Conclusions ......................................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Defining Erroneous Payments ............................................................................ B-1
Appendix C – Discrepancies in the Annual Report ................................................................... C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)
ABBREVIATIONS
AFI                 Access to Financial Institutions

AFR                 Agency Financial Report

CIGIE               Council of Inspectors General on Integrity and Efficiency

DI                  Disability Insurance

Fed. Reg.           Federal Register

FY                  Fiscal Year

GAO                 Government Accountability Office

IPIA                Improper Payments Information Act of 2002

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

OMB                 Office of Management and Budget

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSIMWR              Supplemental Security Income Mobile Wage Reporting

SSITWR              Supplemental Security Income Telephone Wage Reporting




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)
OBJECTIVES
Our objectives were to review the Social Security Administration (SSA) Accountable Official’s
Annual Report to the Office of the Inspector General (OIG), as required by Executive
Order 13520, Reducing Improper Payments, and determine whether the (1) figures presented
were accurate and (2) Agency complied with all requirements of the Executive Order.

BACKGROUND
On November 20, 2009, the President signed Executive Order 13520 1 to reduce improper
payments by intensifying efforts to eliminate payment error, waste, fraud, and abuse in major
Government-administered programs, while continuing to ensure Federal programs serve and
provide access to their intended beneficiaries. The Executive Order provides that, “[w]hen the
Federal Government makes payments to individuals and businesses . . . [such] as program
beneficiaries, grantees, or contractors, or on behalf of program beneficiaries, it must make every
effort to confirm that the right recipient is receiving the . . . [correct] payment . . .” 2

As part of the Executive Order, 3 each agency operating a high-priority program identified by the
Office of Management and Budget (OMB) is required to provide its OIG annually, within
180 days of the Order, a report containing the

1. methodology for identifying and measuring improper payments by the agency’s high-priority
   programs;

2. plans, together with supporting analysis, for meeting the reduction targets for improper
   payments in the agency’s high-priority programs; and

3. plans, along with supporting analysis, for ensuring that initiatives undertaken pursuant to the
   Order do not unduly burden program access and participation by eligible beneficiaries.

OMB classified SSA’s Title II Old-Age, Survivors and Disability Insurance (OASDI) and
Title XVI Supplemental Security Income (SSI) programs as high-priority. 4




1
    Reducing Improper Payments, 74 Fed. Reg. 62201 (November 25, 2009).
2
    Id. at § 1.
3
    74 Fed. Reg. 62202, § 3(b).
4
 OMB, M-10-13, Issuance of Part III to OMB Circular A-123, Appendix C, and Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Part III, Requirements for Implementing Executive Order 13520:
Reducing Improper Payments, § (A)(1)(e), pp. 5-6, (March 22, 2010).



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                           1
Improper Payments
Each year, SSA reports payment accuracy rates for the OASDI and SSI programs based on its
stewardship reviews, which the Agency uses to measure the accuracy of benefit payments. SSA
reports over- and underpayments from its stewardship reviews of nonmedical aspects for the
Retirement and Survivors Insurance, Disability Insurance (DI), and SSI programs. In accordance
with OMB’s guidelines 5 implementing the provisions of the Improper Payments Information Act
of 2002 (IPIA), 6 an improper payment subject to reporting under IPIA is any payment that should
not have been made or that was made in an incorrect amount under statutory, contractual,
administrative, or other legally applicable guidance. Stewardship review findings provide the
basis for reports to monitoring authorities. The Agency also uses data from these reviews in
corrective action planning and monitoring performance, as required by the Government
Performance and Results Act of 1993. 7

RESULTS OF REVIEW
Our review determined that the Agency (1) generally met the requirements of Executive
Order 13520 and (2) accurately reported improper payment information except for four
immaterial instances in which figures were inaccurate based on the supporting documentation. 8

Requirements of Executive Order
In March 2010, OMB issued guidance 9 for implementing the requirements of the Executive
Order. We reviewed the SSA Accountable Official’s 10 April 11, 2014 Fifth Annual Report 11 to
ensure the Agency addressed all requirements of the Executive Order.

Methodology for Identifying and Measuring Improper Payments
OMB guidance requires that an agency’s Annual Report describes the agency’s program
error-measurement methodology, plans for meeting improper payment targets, and plans to



5
 OMB, M-03-13, Implementation Guidance for the Improper Payments Information Act of 2002,
Pub L No. 107-300, p. 1 (May 21, 2003).
6
    Pub. L. No. 107-300, § 2, 116 Stat. 2350 (2002).
7
    Pub. L. No. 103-62, § 4, 107 Stat. 285, 286-289 (1993).
8
    See Appendix A for the scope and methodology.
9
    OMB Circular A-123, supra.
10
   An accountable official holds an existing Senate-confirmed position that will be accountable for meeting the
targets established under Executive Order 13520, Reducing Improper Payments. 74 Fed. Reg. 62202, § 3(a).
11
  OMB guidance requires that accountable officials for those agencies that are identified as having at least one
high-priority program must provide an annual report to their Inspectors General in response to Section 3(b) of the
Executive Order. OMB Circular A-123, supra at § C(2)(b), p. 16.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                              2
ensure program access and participation by eligible beneficiaries. 12 The first requirement of
OMB Circular A-123 indicates that the report should include sample size and related
calculations; results of annual measurements; and other applicable measurement-related
information. 13

Similar to the details provided by the Agency in our 2012 and 2013 reviews, 14 SSA described the
stewardship reviews it used to measure the accuracy of payments to beneficiaries in current
payment status. In addition, SSA’s Annual Report presented the payment accuracy results from
the stewardship reviews through tables titled, Improper Payments Experience FY 2010 –
FY 2012. This information satisfied the first OMB reporting requirement enumerated above.

Plan for Meeting the Reduction Targets for Improper Payments
The second OMB requirement states that the Annual Report must contain the agency’s plan and
supporting analysis for meeting the reduction targets for improper payments. 15 This requirement
includes reporting

1. the root causes of program errors;

2. the corrective actions being implemented and their full implementation date;

3. the types of errors the corrective actions will address and their expected impact;

4. the anticipated costs of the corrective actions and their likely return on investment; and

5. an explanation of the program’s performance in meeting its reduction targets.

In addition to the reduction targets, agencies with high-priority programs are required to establish
semiannual or supplemental targets for reducing improper payments. 16 OMB guidance 17 states
that supplemental targets should focus on higher-risk areas within the high-priority program and
report on root causes of errors that agencies can resolve through corrective actions.




12
     Id., at § C(2)(b) p. 16.
13
     Id. at § C(2)(c)1, p. 17.
14
  SSA OIG, The Social Security Administration’s Plan to Reduce Improper Payments Under Executive Order
13520, as Reported in March 2013 (A-15-13-13105), September 2013, and SSA OIG, The Social Security
Administration’s Plan to Reduce Improper Payments Under Executive Order 13520, as Reported in March 2012
(A-15-12-12141), September 2012.
15
     OMB Circular A-123, supra at § (C)(2)(c)2, p. 17.
16
     74 Fed. Reg. 62201, § 2(a)(ii).
17
     OMB Circular A-123, supra at § (B)(2)(e), p. 11.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                    3
SSA did not provide all of the required information for the SSI corrective actions reported. In
addition, the Agency did not explain the OASDI and SSI programs’ performance in meeting its
reduction targets.

OASDI

On April 22, 2010, OMB confirmed that SSA was not required to establish the additional
supplemental measures and target for the OASDI program because SSA’s payment-accuracy rate
met the payment-error threshold of less than 2 percent of program outlays. However, SSA
fulfilled other transparency-related reporting by describing the root causes of over- and
underpayments.

SSA’s Annual Report stated the root causes of OASDI (1) overpayments were substantial gainful
activity and computations and (2) underpayments were errors relating to computations and
earnings history. To mitigate these improper payments, SSA identified various areas it would
analyze to potentially reduce payment errors, including 18

1. completing work continuing disability reviews that evaluate a beneficiary’s work activity to
   determine whether the work represents substantial gainful activity;

2. matching current DI beneficiaries with earnings reported to SSA by the Internal Revenue
   Service and posted to the Agency’s Master Earnings File; and

3. developing a statistical predictive model to identify the likelihood of beneficiaries who are at
   risk of receiving large earnings-related overpayments.

While SSA is not required to establish supplemental measures and targets for the OASDI
program, it provided the required annual reduction targets for the over- and underpayments.
However, SSA did not meet its annual reduction targets for OASDI overpayments for 2 or more
consecutive years. 19 The Agency did not explain why the OASDI program did not meet the
targeted overpayment error rate reductions. OMB’s implementation guidance requires that
agencies explain the program’s performance in meeting its annual reduction targets. 20 The
Agency stated, “OMB determines the payment accuracy target for [OASDI] overpayments and
underpayments. They have been held steady at 0.2 percent for several years. For FY 2012, each
tenth of a percentage point in payment accuracy represents about $770 million in [OASDI]
program outlays. Given limited resources, we try to balance program integrity work with other
agency priorities.”




18
  SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, April 2014,
pp. 6 and 7.
19
     Id. at p. 4.
20
     OMB Circular A-123, supra at § (C)(2)(c)2.v, p. 17.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                      4
SSI

SSA’s Annual Report described the root causes of SSI over- and underpayments. 21 The major
causes of SSI (1) overpayments were excess financial accounts, wages, and other real property
and (2) underpayments were living arrangements, in-kind support and maintenance, and wages.
The corrective actions addressed such high-error categories as excess financial accounts, wages,
and non-disability factors. These corrective actions included (1) conducting SSI non-medical
redeterminations, (2) using the access to financial institutions (AFI) process, and (3) using the
SSI Telephone Wage Reporting System (SSITWR).

         SSI Non-Disability Redeterminations are periodic reviews of SSI non-disability
eligibility factors, such as income, resources, and living arrangements. SSA conducts
redeterminations to ensure it pays SSI payments in the correct amount and only to eligible
individuals. The Agency completed approximately 2.63 million redeterminations in Fiscal Year
(FY) 2013, and its goal is to complete 2.62 million by the end of FY 2014.

        AFI is an electronic process that verifies bank account balances with financial institutions
to determine SSI eligibility. AFI also detects undisclosed accounts by searching for accounts
that are kept in financial institutions that are geographically near the SSI applicant or recipient.
The Agency estimated $365 million in lifetime SSI program savings.

OMB guidance requires that agency plans and analyses for meeting improper payment reduction
targets include corrective actions that are being implemented and their full implementation
date. 22 However, the Agency did not report the full implementation date, as required. 23 SSA
stated it changed the full implementation date to an indefinite date because of limited resources
and the necessity to balance other workloads; however, the Agency did not clearly indicate this
change in the Annual Report.

    SSITWR is a dedicated telephone number that allows individuals to report their wages via a
voice-recognition system. Stewardship data indicated that wage-related overpayment dollars
resulted from fluctuating income and individuals’ failure to timely report wage increases. To
simplify the reporting process, SSA created SSITWR. In August 2013, SSA extended SSI
Mobile Wage Reporting (SSIMWR) nationally, and it received over 5,100 successful wage
reports in September 2013.

SSA’s goal was to increase the number of monthly reporters participating in the SSITWR and
SSIMWR initiatives to approximately 46,700 in September 2014. As of March 2014, SSA




21
  SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, April 2014,
pp. 10 and 11.
22
     OMB Circular A-123, supra at § (C)(2)(c)2.ii, p. 17.
23
     OMB Circular A-123, supra at § (C)(2)(c)2.ii, p. 17.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                      5
reported over 64,900 unique wage-reporting participants in SSITWR and SSIMWR. However,
the Agency did not report the program’s anticipated costs or return on investment, as required. 24

The Agency stated it had three corrective actions in the Annual Report: conduct SSI non-
disability redeterminations, use the AFI process, and use the SSITWR system. SSA reported the
same corrective actions for the SSI program in the previous four Annual Reports, but there were
no significant improvements in its improper payment error rates. The Agency had not provided
any additional initiatives to improve the prevention, collection, and detection of improper
payments. The Agency provided the following additional information.

           As mentioned on pages 172-173 and 174 of the FY 2013 AFR, the President's
           FY 2014 Budget includes a special legislative proposal that will provide a dependable
           source of mandatory program integrity funding. The funding will enable us to
           significantly ramp up our program integrity work and increase our ability to conduct
           more medical [continuing disability reviews].

SSA did not meet its reduction targets for SSI overpayments and underpayments for 2 or more
consecutive years. 25 The Agency did not explain why it did not meet the targeted error rates for
over- and underpayments. OMB guidance requires an explanation of the program’s performance
in meeting its reduction targets. 26 The Agency stated, “OMB determines the payment accuracy
target for SSI overpayments and underpayments. For FY 2012, each tenth of a percentage point
in payment accuracy represents about $53.4 million in SSI program outlays. Given limited
resources, we try to balance program integrity work with other agency priorities.”

The Agency also developed supplemental measures and targets for the SSI program, as
collectively required by the Executive Order and its implementing OMB guidance, 27 to address
overpayments due to a change that affected payment amount or eligibility and overpayments due
to unreported wages. The supplemental measures and targets included (1) SSI non-disability
redeterminations and (2) SSITWR. For SSI non-disability redeterminations, SSA’s supplemental
target was to conduct 2.6 million redeterminations in FYs 2014 and 2015.

Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access
OMB’s final requirement is that the Annual Report contains an agency plan, together with
supporting analysis, for ensuring initiatives undertaken to implement the Executive Order do not
unduly burden program access and participation by eligible beneficiaries. 28 Per OMB, “We are



24
     OMB Circular A-123, supra at § (C)(2)(c)2.iv, p. 17.
25
   SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, April 2014,
p. 9.
26
     OMB Circular A-123, supra at § (C)(2)(c)2.v, p. 17.
27
     OMB Circular A-123, supra at § (B)(2), p. 10, and 74 Fed. Reg. 62201, § 2(a)(ii).
28
     OMB Circular A-123, supra at § (C)(2)(c)3, p. 17.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                       6
presently not developing that guidance.” Therefore, SSA did not include this requirement in its
Annual Report.

Quarterly High-Dollar Report to the OIG and Council of Inspectors General
on Integrity and Efficiency
In addition to an Annual Report to the OIG, the Executive Order requires that each agency with
programs susceptible to significant improper payments under IPIA submit to the OIG and
Council of Inspectors General on Integrity and Efficiency (CIGIE), and make available to the
public, a report on any high-dollar improper payments identified by the agency. 29 The applicable
OMB guidance requires such reporting on overpayments but does not reference
underpayments. 30 According to OMB guidance, 31 a high-dollar overpayment is any overpayment
that exceeds 50 percent of the correct amount of the intended payment where the

1. total payment to an individual exceeds $5,000 as a single payment or in cumulative payments
   for the quarter or

2. payment to an entity 32 exceeds $25,000 as a single payment or in cumulative payments for the
   quarter.

SSA submitted quarterly high-dollar reports to the OIG and CIGIE for the reporting period
started June 2010 and each subsequent quarter thereafter. We issued a report in
December 2013 33 covering the high-dollar reporting periods December 2012 and March, June,
and September 2013. We will issue a report on our review of the Agency’s high-dollar reports
for FY 2014 under a separate cover.

Website Submission
According to the Executive Order, 34 agencies are required to submit certain information, subject
to Federal privacy policies and, to the extent legally permitted, to the improper payments
Website. 35 SSA provided the required information 36 to the Website and created its own Website


29
     74 Fed. Reg., supra note 1 62203, § 3(f).
30
     OMB Circular A-123, supra at § (C)(3), p. 17.
31
     OMB Circular A-123, supra at § (C)(3)(e), p. 18.
32
  As stated in OMB Circular A-123, supra at § (C)(5)(n), p. 22, an entity is a non-individual that owes an
outstanding improper payment. The term entity excludes an individual acting in either a personal or commercial
capacity (that is, a sole proprietor) or Federal, State, and local government agencies.
33
  SSA OIG, The Social Security Administration’s Reporting of High-Dollar Overpayments Under Executive Order
13520 in FY 2013 (A-15-13-13115), December 2013.
34
     See 74 Fed. Reg., supra at 62201 to 62202, § 2(b).
35
     The improper payments Website is located at http://www.paymentaccuracy.gov.
36
     OMB Circular A-123, supra § (C)(6)(s), pp. 23 and 24.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                          7
that provides additional details on improper payments. 37 Our review of the Websites confirmed
the information accurately reflected the data in SSA’s Annual Report.

Risk and Oversight Assessed by the OIG
To assess the level of risk for the SSI and OASDI programs, we reviewed the Government
Accountability Office’s (GAO) 38 High-Risk Series reports to Congress. In February 2013, GAO
provided an updated report that identified Federal disability programs as high-risk areas. 39 This
included SSA’s SSI and DI programs.

We continue overseeing the SSI and OASDI programs through various audits and evaluations.
For the period April 1, 2013 through March 31, 2014, we issued 72 reports on a variety of
challenges that faced the Agency and identified over $667 million in questioned costs and
$611 million in Federal funds that could be put to better use. We will continue monitoring
SSA’s programs by conducting and supervising comprehensive financial and performance audits
and making recommendations to maximize the effective operations of the Agency’s programs
most vulnerable to fraud and abuse.

We conducted an in-depth review 40 of SSITWR to determine whether SSA’s SSITWR process
effectively received and processed wage reports as well as reduced improper payments. We
determined SSITWR effectively received and processed wages reported via telephone. Although
SSA had reduced improper payments since it implemented SSITWR, information was not
available to correlate the reduction with this new process. The Agency had other initiatives
(such as SSI Non-Disability Redetermination and AFI) ongoing during our audit period that
could have contributed to the reduction in improper SSA payments.

We also plan to issue a report in 2014 on our evaluation of SSA’s AFI program.

Accuracy of Reported Information
SSA provided supporting documentation for all figures in the Annual Report; however, we noted
one error in monetary figures and three errors for non-monetary figures for which the supporting
documentation did not accurately reflect the Report’s data. The discrepancies, however, were
not substantive to the overall report content (see list of discrepancies in Appendix C). We
informed SSA of these discrepancies, and the Agency corrected the amounts in the Annual
Report posted on its improper payments Website.




37
     http://www.ssa.gov/improperpayments.
38
 Effective July 7, 2004, GAO’s legal name was changed from the General Accounting Office to the Government
Accountability Office.
39
     GAO High-Risk Series, An Update (GAO-13-283), February 2013.
40
     SSA OIG, Supplemental Security Income Telephone Wage Reporting (A-15-12-11233), February 2014.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                      8
CONCLUSIONS
During our review, we noted the Agency generally presented in its Annual Report all
information required for Executive Order 13520, except for the corrective actions for the SSI
program and explanations for OASDI and SSI programs’ performance in meeting its reduction
targets. We also noted four immaterial instances of figures that were inaccurate based on the
supporting documentation.

The Agency has reported the same corrective actions for the SSI program in the past four
reporting cycles and has not reported any new initiatives that prevent and identify improper
payments. Additionally, the Agency has no full implementation date established for its AFI
program. We reported these same observations in prior evaluations and made recommendations
to address our findings. 41 Although we did not repeat our recommendations in this report, we
encourage the Agency to continue pursuing corrective actions.

At the conclusion of our evaluation, the Agency provided the following comments.

        We appreciate your acknowledgement that we generally complied with Executive
        Order 13520.

        Regarding your statement that we did not report corrective actions for the
        Supplemental Security Income (SSI) program, we have made progress in this area.
        Currently, the SSI redetermination statistical predictive model, the Access to Financial
        Institutions, and the Supplemental Security Income Telephone Wage Report are our
        three primary corrective action initiatives. We also continue to develop pilots for new
        initiatives. For example, our 2015 budget request notes that, in 2014, we are testing
        third party data for the Non-Home Real Property pilot to refine and potentially expand
        its use. We can only report on initiatives where we have proven success and realize
        cost-effectiveness, and will report on any initiatives that fit those criteria in future
        reports.

        In response to your statement that we did not provide explanations for Old-Age,
        Survivors and Disability Insurance (OASDI) and SSI program performance in
        meeting our reduction targets; we believe it is important for the reader to understand
        that it is not possible to directly and specifically pinpoint why we did not achieve a
        particular error rate target. In complex programs like OASDI and SSI, the impact on
        the improper payment rate results from numerous factors, such as stewardship
        activities, changes in the national economy, and changes in individual beneficiary
        behavior. It is not possible to assign a specific reason for a change in the improper
        payment rate to one or more specific causes.




41
  SSA OIG, The Social Security Administration’s Plan to Reduce Improper Payments Under Executive Order
13520, as Reported in March 2013 (A-15-13-13105), September 2013, and SSA OIG, The Social Security
Administration’s Plan to Reduce Improper Payments Under Executive Order 13520, as Reported in March 2012
(A-15-12-12141), September 2012.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                    9
        Regarding the four instances of inaccurate figures, we continue to enhance our
        internal quality review process to ensure we provide accurate information. The report
        accurately notes that we updated our Improper Payments website to reflect the correct
        information.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)         10
                                      APPENDICES




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)
Appendix A – SCOPE AND METHODOLOGY
Our objectives were to review the Social Security Administration Accountable Official’s Annual
Report to the Office of the Inspector General, as required by Executive Order 13520, Reducing
Improper Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order. To accomplish our
objectives, we:

   Reviewed the Accountable Official’s Fifth Annual Report under Executive Order 13520,
    Reducing Improper Payments, April 11, 2014.

   Reviewed applicable Federal laws.

   Reviewed applicable Office of Management and Budget guidance.

   Reviewed the Fiscal Year (FY) 2011 Stewardship Review Reports for the Old-Age,
    Survivors and Disability Insurance and Supplemental Security Income programs.

   Reviewed the FY 2012 Stewardship Review Reports for the Old-Age, Survivors and
    Disability Insurance and Supplemental Security Income programs.

   Reviewed the Improper Payments Information Detailed Report section of the
    FY 2013 Agency Financial Report.

   Requested data from the Office of Financial Policy and Integrity to support the figures
    presented in the Annual Report.

   Analyzed the source data to ensure the accuracy of all figures.

   Analyzed the narrative of the Annual Report to ensure compliance with requirements of the
    Executive Order.

We conducted our review from April through June 2014 in Baltimore, Maryland. We conducted
our review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspection and Evaluation.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)       A-1
   Appendix B – DEFINING ERRONEOUS PAYMENTS
   The following table 1 identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting
   status, reasons for the payments, and their classification. There are two classifications.

         Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered “erroneous” and may
          still be subject to recovery.

         Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through changes
          in administrative actions.

                                                          Current
   Types of Payments                    Program                                    Reason for Overpayment/Underpayment                            Classification
                                                           Status
Payments following a
                                                      Not currently
cessation of eligibility due                                              When SSA is required by law to make payments during
                             DI 2 and SSI3            reflected as an                                                                            Unavoidable
to a continuing disability                                                the appeals process, these payments are not erroneous.
                                                      error
review
                                                      Reported as an
Payments made under the                                                   When due process requires that SSI payments continue,
                                                      unavoidable
Goldberg-Kelly due-                                                       although the Agency has determined that a payment
                                    SSI               erroneous                                                                       Unavoidable
process Supreme Court                                                     reduction or termination is in order, such payments are not
                                                      payment in the
decision                                                                  erroneous.
                                                      APP 4



   1
    This table was created through dialogue with SSA, Office of the Inspector General, and the Office of Management and Budget in 2003 after the Improper
   Payments Information Act of 2002.
   2
       Disability Insurance (DI).
   3
       Supplemental Security Income (SSI).
   4
       Annual Performance Plan (APP).



   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                                                                  B-1
                                                              Current
   Types of Payments                    Program                                         Reason for Overpayment/Underpayment                        Classification
                                                               Status
                                                                               The law requires that SSI payments be made on the first
                                                          Reported as an       of the month based on projected income for that particular
Payments made                                             unavoidable          month. Changes in the recipient’s status can occur during
incorrectly because of              SSI                   erroneous            the month, which causes the recipient’s eligibility to              Unavoidable
program design                                            payment in the       change. Because SSA cannot prevent the overpayment,
                                                          APP                  this situation should not be reflected in the Agency’s
                                                                               erroneous payment rate.
                                                                               Dollars released after death (either electronically or in the
                                                                               form of a paper check) that are reclaimed by the
                                                                                                                                                   Unavoidable
                                           5              Not currently        Department of the Treasury or returned unendorsed
Payments issued after               OASI, DI, and                                                                                                  except for
                                                          reflected as an      should not be reflected in the Agency's erroneous payment
death                               SSI                                                                                                            fraud or
                                                          error 6              rate. Conversely, payments made after death that are
                                                                                                                                                   misuse
                                                                               improperly cashed or withdrawn, and are subject to
                                                                               overpayment recovery, should be reported.
                                                                               Duplicate payments issued in accordance with the
                                                                                                                                                   Unavoidable
                                                          Not currently        Robinson-Reif Court decision are unavoidable and should
                                    OASI, DI, and                                                                                                  except for
Non-receipt of payment                                    reflected as an      not be reflected in the Agency's reports on erroneous
                                    SSI                                                                                                            fraud or
                                                          error                payments. The only exception is duplicate payments
                                                                                                                                                   misuse
                                                                               incorrectly sent to abusers.
                                                                                                                                                   Should not be
                                                                               Payments are not erroneous if they are the result of a
                                                          Not currently                                                                            included in the
Payments based on                                                              medical improvement review standard or a situation
                                    DI and SSI            reflected as an                                                                          erroneous
medical eligibility                                                            where the beneficiary would have been ineligible had the
                                                          error                                                                                    payment
                                                                               law permitted retroactive ineligibility.
                                                                                                                                                   estimate


   5
       Old-Age and Survivors Insurance (OASI).
   6
       Per the Office of Quality Review, these payments can be recorded as erroneous if not returned timely per the stewardship review protocol.



   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                                                                 B-2
                                                      Current
   Types of Payments             Program                                     Reason for Overpayment/Underpayment              Classification
                                                       Status
Payments made for Title                           Not currently      When program design requires that the Agency make
II beneficiaries based on     DI and OASI         reflected as an    payments based on estimated earnings, these payments     Unavoidable
earnings estimates                                error              should not be considered erroneous.
                                                                                                                              Should not be
                                                  Not currently      The Agency should not reflect undetected errors in its   included in the
                              OASI, DI, and
Undetected error                                  reported as an     erroneous payment rate unless it has evidence that a     erroneous
                              SSI
                                                  error              specific type of erroneous payment was made.             payment
                                                                                                                              estimate
Duplicate payments to                             Not currently      Agency systems do not capture when the overpayment
                              Administrative
attorneys, vendors, and                           reported as an     occurs; however, this type of error does not meet the    Avoidable
                              Expense
employees                                         error              reporting threshold.




   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                                            B-3
Appendix C – DISCREPANCIES IN THE ANNUAL REPORT
We reviewed the Social Security Administration (SSA) Accountable Official’s Annual Report
Executive Order 13520, Reducing Improper Payments, April 2014, to ensure the information
reported was accurately stated. During our review, we noted the following discrepancies:

           Table C–1: Discrepancies in the SSA’s Annual Report Issued in April 2014 1
           Location in the Annual Report                           Discrepancy Explanation 2
                                                         SSA reported it selected 1,768 Old-Age,
                                                         Survivors and Disability Insurance (OASDI)
                                                         cases for stewardship reviews in Fiscal Year (FY)
                                                         2012. Supporting documentation showed
      Page 3 – Stewardship Reviews                       1,785 cases.
                                                         We verified that the Agency updated the FY 2012
                                                         OASDI cases on its Improper Payments
                                                         Website. 3
                                                         SSA reported the error amount for overpayments
                                                         due to unreported wages as $618.5 million in
                                                         FY 2012. Supporting documentation showed
                                                         $616 million. In addition, SSA reported this error
      Pages 17 through 19 – Tables: FY 2014-
      FY 2016 SSI – Supplemental Measures and            amount was 18.3 percent of all overpayment
      Targets                                            deficiency dollars. Supporting documentation
                                                         showed 18.2 percent.
                                                         We verified that the Agency updated the amounts
                                                         on its Improper Payments Website. 4
                                                         SSA reported the administrative/limitation on
                                                         administrative expenses overpayment error rate
      Page 29 – Table: Improper Payments                 as 0.03 percent. Supporting documentation
      Reporting Requirements (Error Rates for            showed 0.07 percent.
      FY 2012)
                                                         We verified that the Agency updated the amount
                                                         on its Improper Payments Website. 5




1
    SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, April 2014.
2
  We informed SSA of these discrepancies during our review and the Agency stated that it would correct the errors
in the April 2014 Annual Report. SSA corrected the amounts on the Agency’s Improper Payments Website.
3
    http://www.ssa.gov/improperpayments.
4
    Id.
5
    Id.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)                        C-1
Appendix D – MAJOR CONTRIBUTORS
Victoria Vetter, Director

Judi Kammer, Audit Manager

Kelly Stankus, Senior Auditor

Lori Lee, Senior Auditor




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of April 2014 (A-15-14-14127)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
